                 U.S. ELECTION ASSISTANCE
                        COMMISSION
                OFFICE OF INSPECTOR GENERAL




                            FINAL REPORT:

                 Administration of Payments Received
                Under the Help America Vote Act by the
                   Illinois State Board of Elections



                   JANUARY 1, 2006 THROUGH AUGUST 31, 2010




Report No.
E-HP-IL-12-10
May 2011
                          U.S. ELECTION ASSISTANCE COMMISSION

                                   OFFICE OF INSPECTOR GENERAL

                                  1201New York Ave. NW - Suite 300

                                       Washington, DC 20005



                                                                                         May 6, 2011

Memorandum


To:	        Thomas Wilkey
            Executive Director

From:	      Curtis W. Crider
            Inspector General

Subject:    Final Audit Report - Administration of Payments Received Under the Help America
            Vote Act by the Illinois State Board of Elections
            (Assignment Number E-HP-IL-12-10)

       We contracted with the independent certified public accounting firm of Clifton Gunderson
LLP (Clifton Gunderson) to audit the administration of payments received under the Help America
Vote Act (HAVA) by the Illinois State Board of Elections (SBOE). The contract required that the
audit be done in accordance with U.S. generally accepted government auditing standards. Clifton
Gunderson is responsible for the attached auditor’s report and the conclusions expressed therein.

       In its audit of the SBOE, Clifton Gunderson concluded that, except for the maintenance of
comprehensive property records, the SBOE generally accounted for and expended HAVA funds in
accordance with the HAVA requirements and complied with the financial management
requirements established by the U.S. Election Assistance Commission. The SBOE also complied
with section 251 requirements.

        In its February 22, 2011 response to the draft report (Appendix A-1), the SBOE agreed with
the report’s finding and recommendation, and provided corrective action.

        On April 7, 2011, the EAC response (Appendix A-2) indicated general agreement with the
report finding and recommendation, and stated that they would work with the state to ensure
corrective action. We would appreciate being kept informed of the actions taken on our
recommendations as we will track the status of their implementation. Please respond in writing to
the finding and recommendation included in this report by July 6, 2011. Your response should
include information on actions taken or planned, targeted completion dates, and titles of officials
responsible for implementation.

        The legislation, as amended, creating the Office of Inspector General (5 U.S.C. § App.3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented. Therefore, this
report will be included in our next semiannual report to Congress.

         If you have any questions regarding this report, please call me at (202) 566-3125.
                     
                     
     PERFORMANCE AUDIT REPORT


ADMINISTRATION OF PAYMENTS RECEIVED

             UNDER THE

       HELP AMERICA VOTE ACT

               BY THE

          STATE OF ILLINOIS


 January 1, 2006 Through August 31, 2010


       UNITED STATES ELECTION

       ASSISTANCE COMMISSION

                     
                     
                     
                     
                     
                     




                    a1 
                                                  TABLE OF CONTENTS




                                                                                                                              PAGE


EXECUTIVE SUMMARY ............................................................................................................ 1


BACKGROUND.......................................................................................................................... 2


AUDIT OBJECTIVES ................................................................................................................. 3


SCOPE AND METHODOLOGY ................................................................................................. 4


AUDIT RESULTS ....................................................................................................................... 4


APPENDICES


Appendix A-1: Illinois State Board of Elections Response to Audit Results ........................ 6


Appendix A-2: U. S. Election Assistance Commission Response to Audit Results ............ 7


Appendix B: Audit Methodology .............................................................................................. 8

                        U.S. Election Assistance Commission

        Performance Audit of the Administration of Payments Received Under the

                     Help America Vote Act by the State of Illinois


EXECUTIVE SUMMARY

Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
Commission) Office of Inspector General (OIG) to conduct a performance audit of the Illinois
State Board of Elections (SBOE) for the period January 1, 2006 through August 31, 2010 to
determine whether the SBOE used payments authorized by Sections 101, 102, and 251 of the
Help America Vote Act of 2002 (HAVA or the Act) in accordance with HAVA and applicable
requirements; accurately and properly accounted for property purchased with HAVA payments
and for program income, and met HAVA requirements for Section 251 funds for an election fund
and for a matching contribution. In addition, we were engaged to conduct a performance audit
of the election fund receipts from August 27, 2003 to December 31, 2005.

EAC OIG conducted a performance audit of SBOE’s expenditures, but not the total receipts, of
the HAVA program from inception through December 31, 2005, and issued a report dated
October 18, 2006. We have reviewed SBOE’s corrective actions with respect to the findings
and recommendations included in the EAC OIG report. We found that the recommendations
have been implemented.

Our audit did not include a determination that the SBOE met the requirements for maintenance
of a base level of state outlays, commonly referred to as Maintenance of Expenditures (MOE).
On June 28, 2010, the Commission issued a revised definitive policy on the requirements for the
MOE. The policy included a provision that the states will have 12 months from the date of the
revised policy to voluntarily submit a revised MOE plan to the EAC. Accordingly, our scope of
audit did not include a determination of whether the SBOE and its subgrantees met the
requirements for MOE.

In addition, the Commission requires states to comply with certain financial management
requirements, specifically:

   •	 Comply with the Uniform Administrative Requirements for Grants and Cooperative
       Agreements with State and Local Governments (also known as the “Common Rule”) as
       published in the Code of Federal Regulations 41 CFR 105-71.

   •	 Expend payments in accordance with cost principles for establishing the allowance or
       disallowance of certain items of cost for federal participation issued by the Office of
       Management and Budget (OMB) in Circular A-87, Cost Principles for State, Local, and
       Indian Tribal Governments.

   •	 Submit detailed annual financial reports on the use of Title I and Title II payments.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent



                                                1

limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for the maintenance of adequate property records over HAVA funded equipment, as
discussed below, our audit concluded that the SBOE generally accounted for and expended
HAVA funds in accordance with the requirements mentioned above for the period from January
1, 2006 through August 31, 2010. The exception needing SBOE’s management attention is as
follows:

   •	 Inventory listings of voting equipment did not conform to the requirements of 41 C.F.R.
       105-71.132 (d) (1), (the Common Rule) at five of the seven local election jurisdictions we
       visited. The listings did not include required elements such as the use and condition of
       the property, or the federal, state, or county percentage of ownership.

We have included in this report as Appendix A-1 the SBOE management’s formal response to
the draft report dated February 22, 2011. Although we have included management’s written
responses to our notices of findings and recommendations, such responses have not been
subjected to the audit procedures and, accordingly, we do not provide any form of assurance on
the appropriateness of the responses or the effectiveness of the corrective actions described
therein. SBOE officials agreed with our recommendations.

The draft report, including the SOS responses, was provided to the Executive Director of the
EAC for review and comment. The EAC responded on April 7, 2011, and generally agreed with
the report’s finding and recommendation. The EAC stated that they would work with the state to
ensure appropriate corrective action. The EAC’s complete response is included as Appendix A­
2.


BACKGROUND

HAVA created the Commission to assist states and insular areas with the improvement of the
administration of Federal elections and to provide funds to states to help implement these
improvements. HAVA authorizes payments to states under Titles I and II, as follows:

   •	 Title I, Section 101 payments are for activities such as complying with Title III of HAVA for
       uniform and nondiscriminatory election technology and administration requirements,
       improving the administration of elections for Federal office, educating voters, training
       election officials and poll workers, and developing a state plan for requirements
       payments.

   •	 Title I, Section 102 payments are available only for the replacement of punch card and
       lever action voting systems.

   •	 Title II, Section 251 requirements payments are for complying with Title III requirements
       for voting system equipment; and for addressing provisional voting, voting information,
       statewide voter registration lists, and voters who register by mail.




                                                2

Title II also requires that states must:

    •	 Have appropriated funds “equal to 5 percent of the total amount to be spent for such
        activities [activities for which requirements payments are made].” [Section 253(b) (5)].

    •	 “Maintain the expenditures of the state for activities funded by the [requirements] payment
        at a level that is not less than the level of such expenditures maintained by the state for
        the fiscal year ending prior to November 2000.” [Section 254 (a) (7)].

    •	 Establish an election fund for amounts appropriated by the state “for carrying out the
        activities for which the requirements payment is made,” for the Federal requirements
        payments received, for “such other amounts as may be appropriated under law,” and for
        “interest earned on deposits of the fund.” [Section 254 )(b)(1)].
AUDIT OBJECTIVES
The objectives of our audit were to determine whether the Illinois SBOE:
    1.		 Used payments authorized by Sections 101, 102, and 251 of HAVA in accordance with
         HAVA and applicable requirements;
    2.		 Accurately and properly accounted for property purchased with HAVA payments and for
         program income;
    3.		 Met HAVA requirements for Section 251 funds for an election fund and for a matching
         contribution except for the requirements for maintenance of a base level of state outlays,
         commonly referred to as Maintenance of Expenditures (MOE). On June 28, 2010, the
         Commission issued a revised definitive policy on the requirements for the MOE. The
         policy included a provision that the states will have 12 months from the date of the
         revised policy to voluntarily submit a revised MOE plan to the EAC. Accordingly, our
         scope of audit did not include a determination of whether the SBOE and its subgrantees
         met the requirements for MOE.
In addition, to accounting for HAVA payments, the Act requires states to maintain records that
are consistent with sound accounting principles that fully disclose the amount and disposition of
the payments, that identify the project costs financed with the payments and other sources, and
that will facilitate an effective audit. The Commission requires states receiving HAVA funds to
comply with certain financial management requirements, specifically:

    1.		 Comply with the Uniform Administrative Requirements for Grants and Cooperative
         Agreements with State and Local Governments (also known as the “Common Rule”) as
         published in the Code of Federal Regulations at 41 CFR 105-71.

    2.		 Expend payments in accordance with cost principles for establishing the allowance or
         disallowance of certain items of cost for federal participation issued by the OMB.

    3.		 Submit detailed annual financial reports on the use of Title I and Title II payments.1


1  EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and 251 funds.
Through December 31, 2008, for Sections 101 and 102, reports were due on February 28 for the activities of the
previous calendar year, and, for Section 251, reports were due by March 30 for the activities of the previous fiscal
year ending on September 30. Beginning in calendar year 2009, all reports will be effective as of September 30,
20XX for the fiscal year ended that date and will be due by December 31, 20XX.


                                                         3
	
SCOPE AND METHODOLOGY

We audited the HAVA funds received from August 27, 2003 through August 31, 2010, and
disbursed from January 1, 2006 through August 31, 2010.

Funds received and disbursed by the HAVA program from inception, August 27, 2003, through
August 31, 2010 (85-month period) are shown in the following table:
                              FUNDS RECEIVED                                                                                          
 TYPE OF             EAC     PROGRAM    STATE    INTEREST    TOTAL    FUNDS                                                DATA
 
PAYMENT            PAYMENT  INCOME      MATCH     EARNED    AVAILABLE  DISBURSED                                           AS OF
 
                                                                                                                               
Section 101       $  11,129,030      $         0    $             0    $    1,134,816     
                                                                                         $12,263,846       $10,840,978     
                                                                                                                          8/31/2010 
Section 102       33,805,617                   0                  0         1,232,393      35,038,010       33,669,668    8/31/2010 
Section 251       110,542,880                  0    5,816,250               7,633,287    123,992,417       103,582,838    8/31/2010 
                                                                                                                                      
     Total        $ 155,477,527      $         0    $5,816,250    $10,000,496    $ 171,294,273            $148,093,384    8/31/2010 

Our audit methodology is set forth in Appendix B.

AUDIT RESULTS

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for the maintenance of adequate property records, our audit concluded that the SBOE
generally accounted for and expended HAVA funds in accordance with the requirements
mentioned above. The SBOE has taken action on or is working to resolve the exceptions
described below as set forth in Appendix A-1:

I.    Property Records for HAVA Funded Equipment

The equipment listings provided to us by the five of the seven local jurisdictions we visited, did
not conform to the requirements of 41 C.F.R. 105-71.132 (d)(1), (the Common Rule). We noted
that the listings included the serial number and the location, but it did not always include a
description of the property and use and condition, source, or federal or local jurisdiction
percentage of ownership

The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments, 41 CFR § 105-71.132(d)(1), referred to as the Common Rule, states
that property records must be maintained that include a description of the property, a serial




                                                           4

number or other identification number, the source of property, who holds the title, the acquisition
date, cost of the property, percentage of Federal participation in the cost of the property, the
location, use and condition of the property, and any ultimate disposition data including the date
of disposal and sale price of the property. The Common Rule, 41 CFR § 105-71.132(d)(3), also
requires that a control system must be developed to ensure adequate safeguards to prevent
loss, damages or theft of the property.

SBOE election officials had advised local jurisdictions of the requirements of the Common Rule
but not all of these jurisdictions had prepared inventory records that were in compliance with the
Common Rule.

Recommendation:

We recommend that the SBOE continue to work with local jurisdictions to ensure that the
property records include the minimum information required by the Common Rule.

SBOE’s Response:

The SBOE concurred with the finding and recommendation, and stated that, although they had
notified the jurisdictions of the requirements on multiple occasions and provided them with a
worksheet to comply with the rules, a number of jurisdictions have not complied. The SBOE
stated that they would continue to work with the sub-recipients to achieve compliance.


                               ****************************************

We provided a draft of our report to the appropriate individuals of the Illinois SBOE and the
EAC. We considered any comments received prior to finalizing this report.

The EAC’s response dated April 7, 2011, generally agreed with the report’s finding and
recommendation. The EAC stated that they would work with the state to ensure appropriate
corrective action. The EAC’s complete response is included as Appendix A-2.

CG performed its work between September 13, 2010 and October 1, 2010.

a1 
Calverton, Maryland
October 15, 2010




                                                  5
                                                                                                Appendix A-1
                                          STATE BOARD OF ELECTIONS 

                                              STATE OF ILLINOIS 


1020 South Spring Street, P.O. Box 4187                                                     BOARD MEMBERS
Springfield, Illinois 62708                                                      Bryan A. Schneider, Chairman
217/782-4141 TTY: 2171782-1518                                                Wanda L. Rednour, Vice Chairman
Fax: 217/782-5959                                                                              Patrick A. Brady
                                                                                                 John R. Keith
James R. Thompson Center                                                                 William M. McGuffage
100 West Randolph, Suite 14-100                                                                Albert S. Porter
Chicago, Illinois 60601                                                                         Jesse R. Smart
312/814-6440 TTY: 312/814-6431                                                                Robert J. Walters
Fax: 312/814-6485
                                               EXECUTIVE DIRECTOR
                                                Rupert T. Borgsmiller



                                                      February 22, 2011


        Mr. Curtis Crider
        Inspector General
        U.S. Election Assistance Commission
        1201 New York Avenue NW - Suite 300
        Washington, DC 20005

        Dear Mr. Crider:

       The Illinois State Board of Elections (SBE) has received the draft report entitled
       "Performance Audit Report - Administration of Payments Received Under the Help
       America Vote Act by the State of Illinois" for the audit period January 1, 2006 through
       August 31,2010.

       We concur with your observation that specific election jurisdictions have not fully
       complied with maintaining property management records as required by the Common
       Rule. Although we have notified the jurisdictions on multiple occasions of their
       responsibility to maintain such records and have supplied them with an Excel
       spreadsheet to include all of the necessary information, a number of jurisdictions have
       not complied. Upon the final report being issued to the EAC, we will once again
       communicate with all sub-recipient counties, to remind them of their obligation to
       comply with Federal property control requirements.

        If you need further information do not hesitate to contact our office.

                                                      Sincerely,



                                                      Rupert T. Borgsmiller
                                                      Executive Director

       cc: 	    Becky Glazier, HAVA Operations
                Mike Roate, Chief Fiscal Officer



                                                 www.elections.il.gov

                                                          6
                                                                                          Appendix A-2




                                      EAC RESPONSE TO THE DRAFT AUDIT:
                                      OIG Performance Audit Report on the Administration of
                                      Payments Received Under the Help America Vote Act by the
                                      State of Illinois, for the Period January 1, 2006 Through
                                      August 31, 2010.

April 7, 2011

MEMORANDUM

To: 	                            Curtis Crider
                                 Inspector General
        ~"""--..




FC§
  ~ Thomas R. Wilkey
                                 Executive Director
        - -'-.-~'~'-.'-'-'   .


Subject: 	                       Draft Performance Audit Report - "Administration of Payments
                                 Received Under the Help America Vote Act by the State of Illinois".

Thank you for this opportunity to review and respond to the draft audit report for
Illinois.

The Election Assistance Commission (EAC) generally concurs with the results of
the review and recommendation. The EAC will work with the Illinois State Board
of Elections (SBOE) to ensure appropriate corrective action.




                                                        7
                                                                                       Appendix B
                                    AUDIT METHODOLOGY

Our audit methodology included:

•	 Assessing audit risk and significance within the context of the audit objectives.

•	 Obtaining an understanding of internal control that is significant to the administration of the
   HAVA funds.

•	 Understanding relevant information systems controls as applicable.

•	 Identifying sources of evidence and the amount and type of evidence required.

•	 Determining whether other auditors have conducted, or are conducting, audits of the
   program that could be relevant to the audit objectives.
To implement our audit methodology, below are some of the audit procedures we performed:

•	 Interviewed appropriate SBOE employees about the organization and operations of the HAVA
   program.

•	 Reviewed prior single audit report and other reviews related to the state’s financial
   management systems and the HAVA program for the last 2 years.

•	 Reviewed policies, procedures and regulations for the SBOE’s management and accounting
   systems as they relate to the administration of HAVA programs.

•	 Analyzed the inventory lists of equipment purchased with HAVA funds.

•	 Tested major purchases and supporting documentation.

•	 Tested randomly sampled payments made with the HAVA funds.

•	 Verified support for reimbursements to local governments (counties, cities, and
   municipalities).

•	 Reviewed certain state laws that impacted the election fund.

•	 Examined appropriations and expenditure reports for state funds used to meet the five
   percent matching requirement for section 251 requirements payments.

•	 Evaluated compliance with the requirements for accumulating financial information reported
   to the Commission on the Financial Status Reports, Forms SF-269 and 425, accounting for
   property, purchasing HAVA related goods and services, and accounting for salaries.

•	 Verified the establishment and maintenance of an election fund.

•	 Conducted site visits of selected counties/towns to perform the following:

     �   Observe equipment purchased with HAVA funds for proper accounting and
         safeguarding
     �   Ensure compliance with HAVA Act.



                                                  8

                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1201 New York Ave. NW - Suite 300
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
